fos
l

OCKLE

2311 Douglas Street CA E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs i

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1378

LINDA RIZZO-RUPON; SUSAN MARSHALL;
and NOEMIO OLIVEIRA,
Petitioners,

v.

INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS,
AFL-CIO DISTRICT 141, LOCAL 914, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 1667 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 14th day of September, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

fe mic, | NOTARY-State of Mebraska Zz. 2. Z i
fe mic, | Deda .

My Comm. Exp. September 5, 2023
Notary Public Affiant 41468

 
